                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A12060040                                                                        Page 1 of 1



          A complainant 1 indicated that information from his published2 and unpublished materials was used
          in an article3 without citation by the PI4 on an NSF proposal. When we asked the complainant to
          identify the material that was copied and provide the source documents, he instead forwarded an
          email message from a co-author5 of the allegedly plagiarized article stating that an erratum had been
          issued to the publishing journal that credited the complainant's work. The complainant indicated
          that this was an acceptable resolution, and did not provide any specific information to support his
          initial complaint.

          Accordingly, this case is closed.




NSF O!G Form 2 (11 /02)
